<html>
<title> - REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON THE NATIONAL IMAGERY AND MAPPING AGENCY</title>
<body><pre>[Senate Hearing 107-227]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-227
 
   REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL 
 RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON 
                THE NATIONAL IMAGERY AND MAPPING AGENCY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON STRATEGIC

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 3, 2001

                               ----------                              

         Printed for the use of the Committee on Armed Services


   REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL 
 RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON 
                THE NATIONAL IMAGERY AND MAPPING AGENCY

                                                        S. Hrg. 107-227

   REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL 
 RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON 
                THE NATIONAL IMAGERY AND MAPPING AGENCY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON STRATEGIC

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2001

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
76-968 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

                       Subcommittee on Strategic

                    WAYNE ALLARD, Colorado, Chairman

STROM THURMOND, South Carolina       JACK REED, Rhode Island
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   Report of the National Commission for the Review of the National 
 Reconnaissance Office and the Report of the Independent Commission on 
                the National Imagery and Mapping Agency

                             april 3, 2001

                                                                   Page

Goss, Porter J., Co-Chairman, National Commission for the Review 
  of the National Reconnaissance Office..........................     3
Cox, Larry D., Member, National Commission for the Review of the 
  National Reconnaissance Office.................................     5
Faga, Hon. Martin C., Member, National Commission for the Review 
  of the National Reconnaissance Office..........................     6
Schneider, Hon. William, Jr., Member, National Commission for the 
  Review of the National Reconnaissance Office...................     7
Marino, Peter, Chairman, Independent Commission on the National 
  Imagery and Mapping Agency; Accompanied by Evan Hineman and 
  Gen. Tom Weinstein.............................................    23
O'Connell, Kevin, Executive Secretary, Independent Commission on 
  the National Imagery and Mapping Agency........................    25

                                 (iii)


   REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL 
 RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON 
                THE NATIONAL IMAGERY AND MAPPING AGENCY

                              ----------                              


                         TUESDAY, APRIL 3, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Smith, Allard, Reed, 
and Nelson of Florida.
    Committee staff member present: L. David Cherington, 
counsel.
    Professional staff members present: William C. Greenwalt, 
Thomas L. MacKenzie, and Eric H. Thoemmes.
    Minority staff member present: Creighton Greene, 
professional staff member.
    Staff assistants present: Beth Ann Barozie and Thomas C. 
Moore.
    Committee members' assistants present: Douglas Flanders, 
assistant to Senator Allard; Menda S. Fife, assistant to 
Senator Kennedy; Christina Evans and Terrence E. Sauvain, 
assistants to Senator Byrd; Elizabeth King, assistant to 
Senator Reed; Peter A. Contostavlos, assistant to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I call the Strategic Subcommittee to order. 
We like to have a reputation of starting on time.
    I know that we do not have all of our witnesses here, and 
Congressman Goss is going ahead, but at least I think we want 
to start with opening statements, and then if Congressman Goss 
does not mind, then we will go ahead and proceed with those of 
you who are here.
    The Strategic Subcommittee meets today to receive testimony 
from the National Commission for the Review of the National 
Reconnaissance Office (NRO) and from the Independent Commission 
on the National Imagery and Mapping Agency (NIMA).
    These two commissions, which were established pursuant to 
congressional direction, have performed a critical service, as 
we seek to revitalize United States space and intelligence 
organizations and operations. I believe that it is appropriate 
that we hear from both the NRO and the NIMA Commissions in a 
single hearing, given the close and synergistic nature of these 
two organizations.
    This hearing also complements the testimony that the 
subcommittee received last week from the Commission to Assess 
United States National Security Space Management and 
Organization, which was chaired by now Secretary of Defense, 
Donald Rumsfeld. All three of these commissions have made 
important recommendations that this subcommittee will carefully 
evaluate as the new administration charts its path regarding 
space and intelligence.
    On our first panel, we will receive a presentation from the 
NRO Commission. When we have the co-chairmen here, I will want 
to give them an opportunity--that is Congressman Porter Goss, 
he is the co-chairman with his fellow commissioners, Larry D. 
Cox, Martin C. Faga, and Bill Schneider, Jr., of the NRO and 
NIMA Commissions, to make a few remarks.
    I would like to point out that it was my privilege and 
great pleasure to serve on the NRO Commission with these 
distinguished gentlemen. I understand that later on Congressman 
Goss will be making an opening statement.
    On panel two, we will hear from the chairmen of the NIMA 
Commission, Peter Marino and Kevin O'Connell, and then the 
Commission's executive secretary. We are looking forward to 
that presentation as well.
    Now, before I turn it over to Representative Goss for his 
opening statement, I will recognize my ranking member, Senator 
Reed, for any opening statement he would like to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you for calling this very important hearing. I want to join you 
in welcoming our witnesses this afternoon.
    It is good to see Congressman Goss, who is a colleague from 
the House, and also Mr. Cox, who is a colleague from the House 
Intelligence Committee, and Mr. Faga, welcome.
    I think that we would all agree, in peacetime or in any 
future conflict, we are relying much more heavily on our 
ability to provide useful, timely information to our decision 
makers, be they in the military or elsewhere in the government. 
Certainly, superior knowledge or information superiority is 
central to executing Joint Vision 2020, or any other reasonable 
national military strategy that may emerge from the ongoing 
defense review.
    The NRO and the NIMA have been playing and will continue to 
play a critical role in supporting these national priorities. 
How we manage and modernize these two vital organizations and 
their activities deserve the attention of this subcommittee and 
Congress. We need to make sure that we are marching on the 
right path.
    These two Commission reports, which have broad implications 
for the NRO and NIMA for the future, will be most helpful as we 
conduct our oversight responsibilities. I look forward to 
hearing from the Commission representatives today, and again, 
thank you, Mr. Chairman, for holding this hearing, and for your 
service on the Commission.
    Senator Allard. Thank you very much, Senator Reed. It is 
good to hear from you.
    We will proceed with our testimony. Just to give the panel 
and the members of the subcommittee an idea of what our 
schedule may look like this afternoon, I have been told that we 
can expect to vote around 3:15, or so. Now, that may be 
delayed, but right now, until we find out the schedule, we are 
assuming that that will happen, and as soon as that vote comes 
up, my idea is that we will go vote right away, and come back 
and finish the subcommittee's business.
    So let me go ahead and recognize Congressman Goss, who I 
served with in the House, an expert on intelligence matters. It 
is good to have you here before the Senate subcommittee, Mr. 
Congressman.

 STATEMENT OF PORTER J. GOSS, CO-CHAIRMAN, NATIONAL COMMISSION 
      FOR THE REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE

    Congressman Goss. Thank you very much, Mr. Chairman. I am 
pleased to look up and see two former colleagues, and wonder 
what happened to me, where I went wrong.
    Senator Allard. We know the feeling, Porter. [Laughter.]
    Congressman Goss. I am pleased to be able to address the 
subcommittee this afternoon, Mr. Chairman and Mr. Reed. I think 
that the work that we did on the Commission is very useful. I 
do not think it is definitive, in the sense that it is a final 
recommendation, but I think that it is a series of conclusions 
at a time of evolution in our intelligence capabilities, at a 
time, equally, when we are reviewing new types of threats to 
our national security, and, in fact, perhaps even a new 
definition to our national security.
    I am fortunate today to be accompanied by several 
commissioners, at least two, I see so far. I do not know how 
many others are coming. Of course, Senator Allard, who served 
on the Commission. I think we have provided to the subcommittee 
the materials from the Commission, and any comments from 
Senator Kerry, who was Co-Chairman, I am sure are available, 
and if not, can be made available.
    I plan to make a brief opening statement, if that is all 
right, Mr. Chairman, for the record. Considering the time 
constraints, it will be brief, a couple of minutes. If you want 
me to forego it, I will submit it for the record. I would 
prefer to make the statement, because it synthesizes what I 
think we did.
    Senator Allard. You may proceed here, Congressman. That 
will be fine.
    Congressman Goss. Thank you.
    The Commission was formed pursuant to the Intelligence 
Authorization Act of Fiscal Year 2000. The legislative mandate 
for the Commission was driven by recognition of the changing 
threat environment and the growing concern about NRO's ability 
to provide innovative space-based capabilities that are so 
vital to maintaining our national security, and, indeed, are 
unique.
    The Commission held numerous meetings, as you will recall. 
We received testimony from literally dozens of witnesses, from 
March to November 2000, across a scope of interests. The 
complete list of interviews and witnesses is included in the 
final report, again, which I understand you have.
    The Commission found that the NRO reconnaissance satellites 
have had a crucially important role during the past four 
decades in providing American presidents a decisive advantage 
in preserving the national security interests of the United 
States, and having just come from the celebration of the 
fortieth anniversary of the NRO, I cannot emphasize how 
strongly what a proud record that has been.
    In many ways, the risks to the United States from the 
potentially catastrophic acts of terrorism and weapons of mass 
destruction and mass disruption are more complex today than 
those the United States confronted during the Cold War.
    In addition, the number of extended U.S. military 
commitments and other U.S. interests around the globe that 
require continuing support is stressing the capacity of NRO 
reconnaissance systems and the intelligence community to detect 
critical indications and warnings of potentially threatening 
events, and I can say that as we sit here today, we are, 
indeed, testing our asset capability very strongly with events 
that have come upon us over the weekend. Together, these and 
other evolving conditions place an enormous premium on 
maintaining a strong space reconnaissance capability.
    NRO capabilities have been available in the past, because 
President Dwight Eisenhower and his successors clearly 
understood the significance of space reconnaissance to our 
national security. They had the tenacity and determination to 
endure the many risks and failures inherent in space 
technology, and they personally directed and sustained the 
investment needed for its development.
    Those are critical points, lots of risk and lots of very 
high-level commitment to the project. However, the clarity, and 
mission, and the sense of urgency that led our past presidents 
and congresses to invest in the future of space reconnaissance 
has dissipated since the end of the Cold War, since the wall 
has come down. The disappearance of the Soviet threat has 
provided a false sense of security, and has resulted in under 
investment in the NRO and other intelligence systems. It is not 
just the NRO.
    This comes at a time when the array of threats facing the 
United States has never been more complex, and the demands on 
the NRO and our other capabilities from new customers have 
never been more intense. The advances in military technology 
have led military customers to develop a voracious appetite for 
NRO data. At the same time, non-military customers increasingly 
demand more information from the NRO regarding a broad array of 
intelligence targets.
    Also, dynamic changes in information technology are 
significantly affecting the NRO. In the absence of additional 
resources, the NRO is being stretched thin, trying to meet all 
its customers' needs, and I have not even begun to talk about 
denial and deception, and what other people are doing to 
frustrate some of the capabilities we seek to get through the 
NRO.
    We believe the American people may assume that space-based 
intelligence collection matters less today than it did during 
the Cold War at a time when paradoxically the demand for the 
NRO's data has never been greater than it is now. The 
Commission's final report stresses the need for decisive 
leadership at the highest levels of government in developing 
and executing a comprehensive and overarching national strategy 
that sets the directions and priorities for the NRO.
    Without that commitment from the top level, we do not think 
it will happen. This is risk heavy, commitment heavy, and 
attention heavy, and perhaps this subcommittee's efforts will 
help us get those ingredients.
    Ensuring that the United States does not lose its 
technological eyes and ears will require the personal attention 
of the President, the Secretary of Defense, and the Director of 
Central Intelligence, along with diligent oversight by 
Congress, and I will add, working together.
    There has been and will continue to be, understandably, 
heavy pressure to maintain current aging capabilities rather 
than to bear the expense of riskier modernization and 
development of advanced technologies. Some of us have seen this 
manifested in different ways.
    The fact of the matter is, we have to deal with today, but 
we have to get ready for tomorrow. Without bold and sustained 
leadership, and the necessary resources, the United States 
could find itself deaf and blind, and increasingly vulnerable 
to any of the potentially devastating threats it may face in 
the next 10 to 20 years, some of which I cannot even imagine 
yet.
    Failure to understand and support the indispensable nature 
of the NRO as the source of innovative, new space-based 
intelligence collection systems will result in significant 
intelligence failure.
    These failures will have direct influence on strategic 
choices facing the nation, and will strongly affect the ability 
of U.S. military commanders to win decisively on the 
battlefield, and we have just come from a wonderful battlefield 
success in the Gulf, where we understand the value of getting 
it right, what that does in terms of risk potential for our 
troops in harm's way. Consequently, I think that we have found 
success, we have to continue to find success, and I believe the 
NRO is very much a part of that formula.
    At this time, Mr. Chairman, I would, with your permission, 
offer the other commissioners the opportunity to make comments, 
and I would be pleased to answer any questions you have on any 
of the particulars.
    Senator Allard. Thank you, Congressman.
    Mr. Cox.

STATEMENT OF LARRY D. COX, MEMBER, NATIONAL COMMISSION FOR THE 
          REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE

    Mr. Cox. I do not have any prepared statement made, but I 
want to make a couple of points. Some of these will reinforce 
what Congressman Goss just said.
    There has been a decrease, I believe, in the budget 
flexibility available to the NRO. In time past, you may 
remember when the technological needs, and, therefore, the cost 
of financing R&D were something the NRO did intuitively, and it 
had sufficient, some would argue over-sufficient, budget to 
actually execute that and do that.
    There has been some reduction in the flexibility to execute 
budget against both programs operational and R&D for the 
future. Something that I think is a major concern is the use of 
the power of the Director of Central Intelligence (DCI) for 
streamlined acquisition.
    The DCI has been given the power to do a class of 
streamlined acquisition that can allow rapid procurement of 
capability to support the intelligence community, and the 
willingness or the interest in DCI has declined in exercising 
some of that streamlined acquisition authority, I would say.
    There is a continuing need to balance the intelligence 
requirements of the national decision maker with military 
support requirements. Some of the responsibility for 
adjudicating the split between those classes of requirements 
has fallen to the builders of systems. If you think of the NRO 
as an acquisition agency, an agency that designs, develops, 
procures, operates, and derives data from classified systems, 
then you understand that it is an engineering organization, 
most effectively.
    It takes requirements from intelligence agencies and turns 
them into intelligence technical capability. So a NIMA, for 
example, would present a set of imagery requirements to an NRO, 
and NRO would design, develop, and build the capability to 
support those requirements. Similarly, an NSA would offer its 
intelligence requirements, the NRO would respond with technical 
capability, and the CIA, and so on.
    Well, the decision about what is space, and what is air, 
and what is human, I do not think should fall to an agency 
responsible for building the capability against those things, 
but what has happened is, I think a lot of the responsibility 
for maintaining the balance between requirements has either 
fallen to the NRO as a developer, or it has found itself in the 
position of having to defend its decisions about how to balance 
intelligence requirements in its design and development of 
systems.
    The tasking, processing, exploitation, and dissemination 
(TPED) issue is a pretty good example of that. Arguably, the 
tasking, processing, exploitation, and dissemination of 
intelligence data, imagery, for example, should lie with an 
imagery agency, NIMA; yet, the TPED issue has fallen squarely 
on the shoulders of the NRO as the builder of capability. So 
the point of this is that I think intelligence agencies should 
get heavily back in the requirements business, and the 
acquisition agencies should get heavily back into the leading 
edge technological acquisition business. So that would define 
more clearly a role for the NRO as a technological agency, and 
probably less so as an intelligence agency. Thank you.
    Senator Allard. Mr. Faga.

 STATEMENT OF HON. MARTIN C. FAGA, MEMBER, NATIONAL COMMISSION 
      FOR THE REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE

    Mr. Faga. Thank you, Mr. Chairman.
    I would like to offer some comments on a specific matter 
that I know is of interest to the subcommittee, and that is the 
matter of the advisability of moving the NRO operations to the 
Air Force, which has been a subject of interest for many years, 
and I offer this view as a member of the Commission, and also 
as a former director of the NRO.
    First, I strongly support further integration of Air Force 
and NRO activities. I think that is absolutely essential and 
also inevitable. The subject of transferring operations is one 
that I think is confused. There is an important variation in 
language used here. In the sense in which a military officer 
usually uses the word ``operate,'' the NRO does not operate 
satellites at all.
    At its ground stations, the NRO uses a largely contractor 
workforce to provide for the health and maintenance of 
satellites, collect data to pass to others for analysis, and 
most importantly, to send commands to the satellites on what 
they should do, but these decisions on what those instructions 
will be, that is, to operate the satellites, are decisions made 
outside the NRO by organizations within NIMA and within NSA.
    During the Persian Gulf, I was frequently called by 
officers at Central Command who would ask me to arrange a 
specific collection by the NRO, and I would explain that I did 
not have the power to do it. They were amazed. I also explained 
that the officer who did have the power was a CENTCOM officer 
who was located in the same building that they were in. They 
were further amazed.
    So in my view, the NRO could receive tasking instructions 
from the U.S. Space Command or the JCS for certain collection 
activities, if that should be a decision of the DCI and the 
Secretary of Defense. However, I see such a decision as 
separate from the matter of who should be the people at ground 
stations providing the technical functions that need to be 
performed there.
    Since no operational decisions are made by the NRO or its 
contractor personnel, this is not the place to decide what the 
increased role of the Air Force or other military entity ought 
to be. The ground station function is simply part of the NRO's 
successful cradle-to-grave philosophy.
    Mr. Chairman, I would be happy to discuss this and other 
points, and your questions.
    Senator Allard. Thank you.
    Mr. Schneider.

  STATEMENT OF HON. WILLIAM SCHNEIDER, JR., MEMBER, NATIONAL 
COMMISSION FOR THE REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE

    Mr. Schneider. Thank you, Mr. Chairman.
    I would just make a few additional points. The NRO 
Commission study happened to occur more or less simultaneously 
with two other important aspects of the Intelligence Community, 
including the Committee on the National Imagery and Mapping 
Agency, and Secretary of Defense Rumsfeld served as a the 
Chairman of the Space Commission.
    These Commissions have highlighted the importance of a 
modern and highly effective intelligence system, which 
Secretary Rumsfeld is now working energetically to implement. 
Intelligence and the transformation of our intelligence 
capabilities to meet the challenges of the 21st century threats 
are a special-interest item to the Secretary, and he has taken 
very seriously one of the recommendations made by the NRO 
Commission, and I think affirmed by the others as well, which 
is to increase the intensity of collaboration with the DCI, as 
the NRO billet is ultimately filled with the NRO as well.
    So I think one of the central elements of having a high 
order of cooperation between the Secretary of Defense and the 
Intelligence Community will be implemented.
    Further, the needs of the Department of Defense for not 
merely better intelligence, but perhaps one might say exquisite 
intelligence to support its operations in the kind of threat 
environment we are likely to encounter in the first quarter of 
this century makes the implementation of many of the NRO 
Commission recommendations important, and I know the Secretary 
will be following these energetically, and I am very pleased, 
as a member of the Commission, to note how seriously the 
Commission's work has been taken, and the appreciation for 
Congress in raising the visibility of this issue, so that it 
could be engaged and implemented by the new administration.
    Thank you, Mr. Chairman.
    Senator Allard. I want to thank the panel for their 
testimony, and I want to let the panel know that I consider it 
an honor and certainly very much a learning experience to be 
able to serve with you on the NRO Commission and its 
discussions that we have had.
    One of the things that I wanted to get on the record is 
that during a lot of the debate we were talking about the 
leading edge technology that actually got the NRO started, but 
then as we moved forward, we got more into the maintenance and 
sustaining systems that were already put in place. The question 
was coming up, can we continue to push the leading-edge aspect 
and also be involved with maintenance and continuation with the 
systems that are there.
    I guess from a policy standpoint on this end, if we may 
have limited funds, I think all of us were talking about the 
fact that we wanted to see that cutting edge maintained, as far 
as the NRO, but that may mean that you have to give up some of 
the maintenance systems.
    Is there any thought as to where those systems may be 
transferred once you get into a posture where you are doing 
maintenance and incremental upgrades on what you have? Does 
anybody want to respond to that? For example, is the Air Force 
the proper place to transfer that, if we do that?
    Mr. Cox. I would say there is a very important thing to 
understand about the NRO systems. They are very long-lived, 
they tend to be more complex operationally than the typically, 
say, communications satellite, or other things that are the 
mainstay of the Department of Defense space systems.
    I come from a narrower background, from the ground, up. I 
have worked consoles, I have sat in field stations, I have 
worked overseas on systems, hands-on, and then have been 
involved in the design, manufacture, building, and so on, so 
there is something different about them in this way. Operating 
them hands-on, directly, lets you understand that this machine 
is more complex than a typical spacecraft machine.
    It is very useful to have factory support when you run into 
problems with devices that last as long as these do on orbit. 
They last much longer than the typical spacecraft, not always 
by design, but by the way they are used and the way they are 
supported over their lifetimes by the heavy involvement of the 
contractor community typically that built the spacecraft 
itself.
    That is unique, I think, in our U.S. space systems, and I 
would be disappointed if that were lost in a different kind of 
managerial kind of construct. There is an intimacy there built 
up through the design and operational process that is very 
important to maintaining these long-lived, expensive systems, 
and there are good procedures in place to make sure that it 
happens that way.
    So that is a difficult thing. I think it is appropriate to 
separate operations from advanced R&D, no question about it. 
Whether it should go into another agency's hands for operation 
I think is subject to considerable debate.
    Senator Allard. Yes? Mr. Faga.
    Mr. Faga. I would agree with that. I served on the Jeremiah 
Panel as well as the NRO Commission, and what we found most 
striking there was having reconnaissance programs in an agency 
that was under the joint direction of the Secretary of Defense 
and the DCI was very important.
    Having worked in satellite reconnaissance from the design 
level, up to the director of NRO level, it is very important 
for all of the people involved to have a real sense of the 
mission. That is why the tie to the DCI is so important. He is, 
at least under our current system, also providing for the 
funding, so it is vital for the director of the NRO to be able 
to sit essentially at his table, fighting for those resources, 
as others fight to meet their needs.
    I think that the idea we put forth in the Commission report 
of a separate office under the director of the NRO to try to 
deal with emerging new ideas is a way to separate new concepts 
from the demands of everyday life in a program office, and the 
mandate that today's satellites have to work today as something 
that we experiment with for the future, can afford to fail, 
something that has to fly and operate today must operate today, 
and program offices respond to that accordingly.
    Senator Allard. Mr. Schneider.
    Mr. Schneider. One dimension of that, Mr. Chairman, that is 
an important recommendation of the Commission, is to look at 
opportunities to transition some of the NRO's collection 
activities to the commercial sector. The technology that now 
exists in the commercial sector and the fact that it is now 
public policy to allow the commercial sector to operate imaging 
satellites with a resolution of half a meter provides an 
occasion where many of the commodity imagery requirements of 
the NRO can be met through the commercial sector, allowing the 
NRO to focus its special expertise on the tough military and 
diplomatic and security problems that require much higher 
levels of capability.
    I think it is an illustration of the fact that the NRO 
needs to focus on the things that it can do best, both now and 
historically, and wherever possible, to have others who can 
deal with other parts of its mission, and can do so 
efficiently, to be allowed to do so.
    Senator Allard. I am going to give the ranking member time 
for some questions.
    Senator Reed. Thank you, Mr. Chairman.
    Congressman Goss, you indicated that there is a need for 
enhancement of technology, and Mr. Cox, you indicated that 
there is a need for budget flexibility, which I presume 
includes increased budgets.
    I wonder in the deliberations of the Commission, do you 
have a ballpark figure about how much recapitalization that we 
are going to have to do in the next, say, 5 years?
    Congressman Goss. The answer is, yes, I have a ball park 
figure. I have lots of ball park figures, and I am not being 
facetious at all.
    Senator Reed. No, I understand.
    Congressman Goss. It really depends on what you want to do. 
I am more interested in outcome than I am in shape or in turf 
of this.
    Let me back up for a second. I think that my three 
colleagues on the Commission, who answered the Chairman's last 
question, basically discovered most of the parameters we talked 
about in terms of how do you deal with the fact that we are 
eating up a lot of the NRO time doing projects that maybe 
somebody else could do, should there be a transfer, is the TPED 
thing right, all of that we went into.
    My conclusion was that it was not a zero-sum game. So if 
you are looking at the question within the box of just, we only 
have so many dollars, if you are going to transfer something 
out, then you have to do certain things.
    Are the customers going to be happy if you do a transfer, 
are you going to get a makeup back inside the box, so you can 
go ahead and invest the savings on new R&D? Are you going to 
make sure that whoever is inside the box running the program is 
as competent? Some of these things, I think, as Larry Cox has 
said, are very complicated to deal with. It is not just a 
program where you switch somebody out of a seat and somebody 
else takes a seat.
    So the answer to your question is, I think that the process 
should be driven by the policy needs of this country to protect 
the national security of the country, with the capabilities we 
need to provide for that policy. When you go at the process 
that way, looking at what's the policy, what is the United 
States of America's role in national security mission globally, 
today, to protect Americans at home and abroad, or however you 
want to define it? How do you get that done, what are the tools 
and capabilities we reasonably have? Then go down into your 
list of capabilities, and you have to run through a whole bunch 
of agencies. It is not just the NRO, you have to get into the 
NSA, and then you have to deal with the customer basis of that, 
the things that we are counting on, the data that we need for 
our baseline today that the military and non-military are 
counting on. When you have figured all of that in, then you 
begin to understand that it would be nice to have things that 
we think we can get to to maintain that data base and keep 
going forward, and the things we ought to be taking a risk on, 
high expense, high risk, high commitment, the kind of thing 
that got the NRO actually going, how much is left to do that.
    My view is that if you do not start with the idea of what 
you want, you are not going to get very far, because you are 
going to use up all of the money if you start setting the 
figure.
    So the answer is, sure, I can give you a ball park figure, 
but I would rather not, because I would hate to have anybody 
throw it back at me----
    Senator Reed. Right.
    Congressman Goss.--down the road and say that doesn't 
provide for all of these things.
    Senator Reed. I infer from your comments that your 
advisement is to that high-risk----
    Congressman Goss. Yes. I would definitely----
    Senator Reed.--high-payoff approach, which implies some 
additional resources.
    Congressman Goss. Yes, absolutely, and I do not want to be 
misleading or be cute in any way. I believe that the 
uniqueness, the innovation, the creativity that we have seen in 
the history of the NRO is its best asset. I think that is what 
makes it shine out and gives it its special deserved niche 
among the agencies in the Intelligence Community.
    That seems to be the area we ought to nourish the most from 
Congress, never forgetting that we have now created a 
dependency with what the NRO has done so far, and we have to 
serve that dependency.
    So, in effect, our success has led us to need more success, 
because we have an expectation that we can do this stuff, and 
we have to do it. That is where I am. Yes, it is going to cost 
something.
    Senator Reed. Mr. Cox, or anyone else, any response or 
comment?
    Mr. Cox. No comments on that.
    Senator Reed. Let me raise another line of questioning to 
the panel. Last week we heard from the Space Commission. One of 
their recommendations was to consolidate acquisition 
responsibilities and authorities within the Office of the Under 
Secretary of the Air Force. In your view, does this Space 
Commission recommendation conflict with any recommendations you 
have made, and in a more general sense, do you see any 
differences of opinion or viewpoint with their report and your 
report?
    Congressman Goss. My quick answer to that is, it could be a 
conflict or it might not be. It depends on how you get into 
some of these programs. My view on the acquisition is that you 
can't load it all up on one person.
    The uniqueness that I have spoken to of the NRO, and the 
testimony that we have had from the other people who have had 
firsthand experience with it, people like Marty, Larry, and 
Bill, have an amazing wealth of knowledge about how to make 
this stuff work best, and what is the most efficient way.
    I have listened to them, because they are the best people I 
know to listen to. The view I come down to is that there are 
some places where we can consolidate and probably make some 
switches, and in some cases go to commercial and do some 
things, and we should be attentive to that, very definitely, 
but I do not think that the requirement is that we spin off six 
things this year, because the requirement is that we spin off 
six things this year. I do not think that is the way this works 
at all.
    So the answer is, I think some of the things the Space 
Commission was trying to get at, to get their arms around how 
we use space, and how we get some management involved in it 
were right, and I embrace them, but some of the particulars of 
saying fit that exact philosophy into how you run the NRO, it 
is not a good fit. I do not think it is a conflict, it is just 
not a good fit. That would be my take.
    Senator Reed. Thank you.
    Mr. Cox, any comment?
    Mr. Cox. A related comment. I would like to talk for a 
moment about this thing called systems engineering, because 
this is the NRO's real strength.
    If I may have a moment to describe something tritely: If it 
is a Saturday morning and you are making breakfast at your 
home, you start the bacon, you start the potatoes, at a certain 
time you put the toast in, at a certain time you put the eggs 
on, and voila, everything arrives at the table ready to eat and 
warm, and you start into it. That is good systems engineering.
    Bad systems engineering is when the bacon arrives, and a 
few minutes later the toast arrives, and a few minutes later 
the eggs arrive, and nothing is hot, and nothing is edible. OK?
    The NRO does systems engineering in the Intelligence 
Community unlike any other entity in the world. It is a skill 
that has been nurtured there for 30 years, through an 
apprentice system of military and civilian people, working 
their way up through a system, and becoming the preeminent 
experts in something, and becoming expert in making their 
something play with or interface to something adjacent.
    Now, that skill, running through programs, can buy your 
costs down, I would argue and can prove, 15 percent per 
program, if you do it right up front. It is architectures 
against requirements, it's technology against requirements, 
it's bending metal, and building radios, and building optical 
systems, and all this, in the best way, but according to a set 
of requirements laid upon an acquisition agency by intelligence 
agencies, so it is not build the best you can, it is build what 
you need, and engineered, from beginning to end, in the most 
efficient manner.
    That skill is lacking in the NIMA, NSA, DIA, CIA, even 
arguably General Motors, and other places. The NRO knows how to 
do this. That cannot be lost, and that is what is at risk when 
you start taking certain kinds of things, responsibilities, and 
performance away from the NRO and trying to parse it out to 
other places and other agencies.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Allard. You are welcome.
    I now recognize the Senator from New Hampshire.
    Senator Smith. Thank you very much, Mr. Chairman.
    Good afternoon, gentlemen. On page 75 of your report, you 
recommended that the Secretary of Defense and the Director of 
Central Intelligence develop a strategy that, quote, 
``Recognizes the threat posed to the U.S. by the likely 
availability of commercial space imagery to opponents of the 
U.S.''
    Relative to that recommendation, would you support the need 
for an anti-satellite capability such as KE-ASAT? Anyone? Bill, 
do you want to--are you the most qualified to answer that, or 
who is?
    Mr. Schneider. I should preface my remarks first, that even 
though I am involved with the Secretary of Defense in the 
transition apparatus, my remarks are as a member of the 
Commission, and not as a representative of the Department of 
Defense or the administration.
    I think that it is very clear that we need to have an 
ability to protect our assets in space, and exactly how that is 
done is an important detail that needs to be managed carefully, 
whether that needs to be done through an ability to attack 
satellites or not is a technical question that needs to be 
resolved, but the overriding issue is to be able to protect our 
assets in space.
    We have a high order of dependence on these assets in 
space, the NRO, and other satellites that support the 
Department of Defense and other national security agencies, and 
the vulnerability of these assets is now well-understood, and 
needs to be addressed on an urgent basis.
    Senator Smith. In the Washington Times, on the 29th of 
March, General Eberhart was quoted as saying that the United 
States has a rudimentary anti-satellite weapon on the shelf 
that could be used in a conflict, but that blowing up 
satellites is a last-ditch option.
    Unless there is something I am not aware of, it is not on 
the shelf, the only game in town at this point that I am aware 
of is KE-ASAT to incapacitate a satellite. It does not 
necessarily blow it up. It could have that capability. It also 
could be a fly swatter type of thing to disable it, but it is 
the only game out there.
    So I guess the question would be, if you believe in that 
capability, would it trouble you to know that--well, let me put 
it this way. We have a program--KE-ASAT is about 90 percent 
complete, not to brag, but largely because for the last 8 or 9 
years I have battled the Clinton administration to keep the 
funding so that we would have it going, they had taken it out, 
and line item vetoed it once. We are 90 percent complete. We 
have appropriated $340 million. We need another $35 million or 
$40 million to finish it.
    Therefore, I guess the question is: Would it trouble you to 
know that the entire management team of that program has been 
taken off the program, has been off the program for perhaps as 
long as 2 years, and that the whole program was being diffused 
into something else called ``space control.'' Did you run into 
anything like that, Congressman Goss. You probably have some 
familiarity with it.
    I do not mean to put you on the spot, but it is just--to 
see the report, which I approve of and support, it is 
frustrating to see those kinds of recommendations coming forth, 
and it is one thing to project into the future and say, okay, 
let us move along on these recommendations that you make, and 
let us try to do something, but it is more frustrating to know 
that we have the capability, and we have been thwarting that 
capability for the last 8 or 9 years, and still are thwarting 
it even to this day.
    Congressman Goss. Senator Smith, thank you. I am going to 
follow-on to the answer I gave to Mr. Reed, in part, and that 
is that I believe policy has to drive expenditure.
    I think that when we have the clear policy about what our 
national security looks like and what our policy is, how we 
define it, who we are, and the globe as it is today, with the 
threats that are out there for the United States and its 
citizens, whether they are here or abroad, the capabilities 
that we spend money on to provide them the greatest degree of 
protection is the issue, and I do not think you can make 
intelligent decisions about money until you go through that 
process.
    Unfortunately, we have not gone through that process in 
this country in quite a while. We need to do it. Certainly, not 
since the wall has come down has a calculataging nuclear 
weapons, the materials, the desire, as you say, or the need to 
upgrade them and develop new capabilities?
    Dr. Schlesinger. Well, that is a very complex question that 
would require extended discussion, but basically we now have a 
site to deal with the waste from the weapons program. It is the 
site in New Mexico called the Waste Isolation Pilot Plant 
(WIPP). I think you may be concerned about the arguments over 
the site in Nevada, which deals with waste, or the individual 
nuclear packages from nuclear reactors. That continues to be a 
matter of great concern, but we are working effectively, if too 
slowly, on disposing of the waste from the weapons program 
itself.
    There has been progress in Idaho. I think there is progress 
continuing at Hanford. There is work going ahead at Savannah 
River, so I think that in that area we have less concern than 
about how to deal with the byproducts of the nuclear reactor 
programs in this country, which has a much stronger ideological 
element in it, may I say, than with regard to the weapons 
program.
    Senator Dayton. I learned something new. I thought that it 
was all going to end up at Yucca Mountain, or some alternative.
    Mr. Guidice. Nuclear weapon production does not generate 
high-level waste. They typically generate low-level and some 
transuranic, which is a mixture of chemical and low-level, so 
the Yucca Mountain is high-level waste from reactors, but the 
weapons program itself does not generate that kind of waste.
    Senator Dayton. Thank you.
    Dr. Schlesinger. These reactors, the fuel in them runs to 
30,000 megawatt days. They can be very, very radioactive, 
whereas with the weapons program basically you are just dealing 
with the byproducts of production, much simpler.
    Senator Dayton. Thank you. Thank you, Mr. Chairman.
    Senator Allard. Thank you. I have about four questions 
here, and then I think we can call everything to a close. I 
appreciate your comments this afternoon and the time you have 
dedicated to the committee.
    Both of you indicated that to increase efforts and 
surveillance capabilities to predict and find defects in the 
stockpile as atop priority. I guess the question related to 
that, do you believe BOB and NNSA has made surveillance a top 
priority, and are they responding to your concerns in that 
regard?
    Dr. Guidice. I think they have, at least I am told they 
have in the last budget year.
    Senator Allard. What about the Congress? I mean, the agency 
is responding. Do you think the Congress is responding?
    Dr. Guidice. I do not know where the negotiation is in 
that. I do know that the Department has tried to make an effort 
to put more money into surveillance on a scale that we thought 
was appropriate.
    Dr. Schlesinger. We will be better able to reach a judgment 
on that, Mr. Chairman, in about 7 or 8 months time.
    Senator Allard. I thought you would answer in that way.
    With the loss of scientists with actual testing environment 
expertise and experience, is there a fear that we could be 
moving toward an era in which our stewards are more experienced 
with computer codes than nuclear physics, and does that create 
a concern for the reliability, safety, and security of the 
stockpile?
    Dr. Guidice. Absolutely. I mean, that is why it is 
important not to allow these stewardship milestones to keep 
slipping into the future until everybody else has died off who 
could train them, and who has any practical experience to 
temper their judgment----
    Senator Allard. Experience is the bottom line in a lot of 
this, is it not?
    Dr. Guidice. Right, and new stewards need some humility to 
realize that these things are not as simple as running a 
computer code.
    By the way, that is not to demean the current generation of 
stewards. The ones that I have talked to I think do have a 
sense of awe about what they are being asked to do, but we need 
to let them do more while the older, experienced people are 
around.
    Senator Allard. Yes. You mentioned a report in section F, 
under NNSA management, on page 24, that unfunded mandates to 
meet functional requirements undermine the program budget, 
plans, and milestones, and I guess the question is, do these 
mandates come from Congress, or do they come from DOE, or both?
    Mr. Guidice. The kinds of unfunded mandates we are talking 
about are generally in safety and security, OK. Security is 
relatively new, this last round of security. We had a round in 
the 1980's as well, but it reaches its height in safety, where 
approaches to safety are not coordinated with program 
requirements, in other words, the work that is actually 
necessary to do to maintain the stockpile.
    We are hopeful that a true or good planning and budgeting 
process would help decide how much to pay on what are now 
unfunded mandates, but what we do not see is a process for 
judging how much is enough. It is very difficult for people and 
for organizations to decide how much safety is enough, are you 
way out on the diminishing returns part of the curve for your 
investment, and what we do not see is the process to put that 
in balance.
    Now, I hope the multiyear budget process----
    Senator Allard. It is very difficult to measure.
    Mr. Guidice. Yes.
    Senator Allard. Could you give me some examples of funded 
mandates which you believe are not critical to the core mission 
at NNSA or the labs?
    Mr. Guidice. Well, I do not want to give you a specific 
example, but I would stick on the issue of safety. A number of 
things that we do in safety are way out on the diminishing 
returns part of the curve. They go beyond the laws and 
regulations. They go to interpretation and increasingly 
restrictive interpretation. We go through waves of this, and 
initially what happens--in fact, there is a wave going on with 
security right now. The requirements are extremely stringent, 
people realize they cannot afford them and pay for them, and 
eventually reason settles in, but only after a long period of 
time and a lot of money to get there.
    I see that mostly in safety. We do things in the name of 
safety that do not really add a lot to safety in terms of 
value-added to the worker and health.
    Dr. Schlesinger. In cases the redesign of a nuclear weapon 
has diminished the reliability of that weapon because of the 
addition of the safety features that might malfunction.
    Senator Allard. I see. Now, in dealing with the question of 
cooperation between DOD and DOE, to what extent has mitigation 
of authority and the temporary vacancy of the assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs negatively affected the relationship between 
DOD and DOE, if at all?
    Dr. Schlesinger. Well, I think the answer to that, Mr. 
Chairman, is that without the critical personnel in the 
Department of Defense in particular, the Nuclear Weapons 
Council, which is supposed to be the bridge between the two 
agencies, becomes less functional, less attentive to problems, 
and therefore it is important either to have that assistant 
Secretary in place, or alternatively to charge somebody else in 
the Pentagon with the responsibility to keep the Nuclear 
Weapons Council functioning.
    Senator Allard. Then, just to conclude here, I would just 
say--unless, Senator Dayton, you have any more questions, if 
anyone needs testimony or copies of the slides you can come to 
the committee and we will have them ready for you, and we will 
leave the record open for 2 days for questions, and thank you, 
Dr. Schlesinger and Mr. Guidice.
    Dr. Schlesinger. The pictures over there of the various 
crumbling facilities also are available for the record.
    Senator Allard. They will be made available. Thank you very 
much.
    Dr. Schlesinger. Thank you, sir.
    Mr. Guidice. Thank you.
    Senator Allard. The subcommittee is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Bob Smith

    Senator Smith. I note that like the DOE, the DOD has serious 
problems sustaining its unique nuclear capabilities. Deterioration in 
facilities, loss of experienced senior scientific and engineering 
staff, the inability to attract a younger generation, and low morale 
all apply.
    What actions might the Panel take during the third year of study to 
develop recommendations for coordination between DOE and DOD that 
retain and reconstitute the complementary capabilities of each 
organization?
    Dr. Schlesinger. For the first few years following in the Cold War, 
the Department of Defense gave, appropriately in my view, less emphasis 
to the nuclear deterrent. The Panel's concern is that DOD has gone too 
far in this regard and that the DOD portion of the nuclear deterrence 
mission has suffered as a result.
    Over the coming year, the Panel will be developing proposed 
confidence indicators--measures that Congress might use to appraise the 
success or failure of stockpile stewardship. This will include measures 
involving the DOD nuclear mission and the Defense Department's 
collaborations with NNSA/DOE. For this purpose, we will be looking at 
the following:

        <bullet> Do DOD strategy reviews and the revised Nuclear 
        Posture Review result in a DOD nuclear deterrence mission that 
        is clearly defined, effectively communicated as a national- and 
        departmental-priority, and adequately resourced?
        <bullet> Does the DOD Nuclear Mission Management Plan provide a 
        genuine plan for all aspects of the DOD nuclear mission, to 
        include specific, measurable objectives; milestones for 
        accomplishments; and resources? Is the DOD plan congruent with 
        the NNSA/DOE Stockpile Stewardship Plan? Has DOD defined 
        specific requirements for the technical capabilities it needs 
        from NNSA, both to meet currently forecast needs associated 
        with the enduring stockpile and current delivery systems, and 
        to meet new requirements if and as the threats to be countered 
        change in the future?
        <bullet> Is the Nuclear Weapons Council functioning effectively 
        as the critical interface between DOD and NNSA/DOE? In this 
        regard, the Panel is encouraged that the NWC has resumed having 
        regular meetings and that at the end of last year it reached 
        initial agreement concerning Life Extension Programs (LEP) for 
        the B61, W80, and W76 weapons. The Panel will be monitoring 
        actions to define and accomplish these programs, plus the 
        status of, and lessons learned from, the W87 LEP that has been 
        underway (and behind schedule) for some time.
        <bullet> Is the Department of Defense providing appropriate 
        senior-level leadership and oversight for DOD nuclear matters? 
        In this regard, our second report recommended that DOD return 
        to the past practice of having an official appointed by the 
        President and confirmed by the Senate serve as Assistant to the 
        Secretary for nuclear matters.

    As part of our appraisal in this area, the Panel will also be 
examining the Defense Department's response to a recommendation posed 
in 1990 by the Congressionally chartered Nuclear Weapons Safety Panel 
that this Assistant to the Secretary of Defense be given a more senior 
status as the OSD member of the Nuclear Weapons Council and upgraded to 
the same status as an Assistant Secretary of Defense, with direct line 
of reporting to the Secretary of Defense.\1\
---------------------------------------------------------------------------
    \1\ Nuclear Weapon Safety. Report of the Panel on Nuclear Weapons 
Safety of the Committee on Armed Services, House of Representatives. 
Committee Print 15. December, 1990, p. 20.
---------------------------------------------------------------------------
    The Panel will also give attention to the programs of the Defense 
Threat Reduction Agency (DTRA), the successor to the Defense Nuclear 
Agency. In the Panel's initial look at the DTRA program, the downward 
trend in funding for nuclear weapons effects research and readiness is 
of concern. Specific issues to be reviewed include integration of DOD 
and DOE programs for nuclear weapon effects modeling, simulation, and 
simulator technology development; the DOD nuclear weapons effects 
phenomenology technical base; and readiness for nuclear tests. In the 
current year, the Panel has already reviewed DTRA test readiness 
activities. Our assessment is that DOD does not have a test readiness 
plan and resourced program.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Senator Reed. Dr. Schlesinger, why is funding for the Laboratory 
Directed Research and Development program important to the overall 
health of the laboratories?
    Is this funding equally valuable for the weapons program?
    Do you agree with the recommendation of the Secretary of Energy's 
Advisory Board Report that LDRD program funding should be increased?
    Dr. Schlesinger. Laboratory Directed Research and Development 
(LDRD) is a very important component of the programs within the three 
nuclear weapon laboratories--Lawrence Livermore, Los Alamos, and 
Sandia. It provides laboratory directors with some flexible resources 
needed to sustain world-class scientific programs. It enables the 
laboratories to initiate development of the next generation of 
technologies in a timely way. LDRD funds are crucial for recruiting the 
best and the brightest of the new scientists for whom the labs are 
always searching.
    Past LDRD funding supported development of some of the key 
technologies being utilized in the Stockpile Stewardship Program.\1\ 
Examples include radiation hardened microelectronics at Sandia, proton 
radiography at Los Alamos, and use of laser heated diamond anvil cells 
to develop new information concerning plutonium equations of state at 
Lawrence Livermore.
---------------------------------------------------------------------------
    \1\ This and the examples below are based on the information 
provided in: Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000.
---------------------------------------------------------------------------
    LDRD provides the preponderance of current funding for weapons-
program-related basic research and new concept development work. This 
is particularly important as we implement the science-based stockpile 
stewardship program.
    Particularly at the physics labs (Lawrence Livermore and Los 
Alamos), LDRD plays an important role in funding postdoctoral 
researchers, many of whom are involved in, or transition to, research 
in direct support of the weapons program.
    The specific Secretary of Energy Advisory Report recommendation 
being referenced is:

        The Congress should restore the LDRD program at the DOE multi-
        program laboratories to at least 6 percent, and should restore 
        Environmental Management programs to the LDRD base.\2\
---------------------------------------------------------------------------
    \2\ Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000. p. 18.

    Our Panel is not chartered to examine environmental management and 
hence has no views concerning this portion of the recommendation. 
Regarding funding level, in our fiscal year 2000 report our Panel 
endorsed Congress' action \3\ to include an allowance of 6 percent for 
LDRD.\4\ We believe it is appropriate to sustain LDRD funding at such a 
level and to invest a significant percentage of these funds on projects 
of direct benefit to stockpile stewardship.
---------------------------------------------------------------------------
    \3\ Conference Report to Accompany H.R. 4635, Report 106-988, p. 
264.
    \4\ Fiscal year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001, p. 22.
---------------------------------------------------------------------------
    Senator Reed. Dr. Schlesinger, you indicated in your testimony that 
the laboratories have been hurt in their ability to attract new 
scientists and engineers as a result of the increased emphasis on 
security.
    Do you have any specific recommendations on how to improve the 
image of labs and their ability to recruit?
    Dr. Schlesinger. There is a strong commitment to security within 
the laboratories, plants, and NNSA. Current issues involve the manner 
in which responses to recent security incidents have been accomplished. 
Our Panel endorses the analysis and recommendations of the security 
review accomplished by Senator Baker and Representative Hamilton. With 
regard to the situation within Los Alamos National Laboratory, it was 
their finding that:

          . . . the combined effects of the Wen Ho Lee affair, the 
        recent fire at LANL, and the continuing swirl around the hard-
        drive episode have devastated morale and productivity at LANL. 
        The employees we met expressed fear and deep concern over the 
        influx of FBI agents and yellow crime-scene tape in their 
        workspace, the interrogation of their colleagues by the FBI and 
        by Federal prosecutors before a grand jury, and the resort of 
        some of their colleagues to taking a second mortgage on their 
        homes to pay for attorney fees. The inevitable anxiety 
        resulting from these circumstances collectively has, by all 
        accounts, had a highly negative effect on the ability of LANL 
        and the other national laboratories to continue to do their 
        work, while attracting and maintaining the talented personnel 
        who are the lifeblood of the cutting-edge work of the 
        laboratory. This is particularly true in X Division and NEST, 
        but seems to be a factor in the lab as a whole.\5\
---------------------------------------------------------------------------
    \5\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton, September 2000, p. 23.
---------------------------------------------------------------------------
          The ability of LANL and the other national laboratories to 
        attract and retain top talent has already been eroded, and now 
        stands at serious risk. If the National laboratories lose the 
        ability to attract and retain top talent, then U.S. national 
        security will be seriously harmed. That harm may be long 
        lasting, in light of the specialized nature of nuclear weapon 
        design technology and the inexorable attrition through 
        retirement and other departures of the dwindling numbers who 
        understand them thoroughly.
          It is doubtful that the DOE, NNSA, LANL, and the University 
        of California will be able effectively to redress either 
        security or management lapses in the midst of a continuing 
        criminal investigation or prosecution. It is critically 
        important to national security that the internal disruptions at 
        LANL be brought to a swift and orderly conclusion, and that the 
        new management structure of the NNSA take all necessary 
        measures to put the laboratory back to work, and to establish 
        the conditions that will be conducive over the long term to the 
        development of leading-edge science in a safe and secure 
        environment.\6\
---------------------------------------------------------------------------
    \6\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 23.

    Our Panel believes that Baker and Hamilton identify key actions 
that are needed to achieve a long-term solution that provides for both 
world-class science and effective security. Two of their 
recommendations warrant particular emphasis. First--There is no who 
answered the Chairman's last question, basically discovered most of the 
parameters we talked about in terms of how do you deal with the fact 
that we are eating up a lot of the NRO time doing projects that maybe 
somebody else could do, should there be a transfer, is the TPED thing 
right, all of that we went into.
    My conclusion was that it was not a zero-sum game. So if you are 
looking at the question within the box of just, we only have so many 
dollars, if you are going to transfer something out, then you have to 
do certain things.
    Are the customers going to be happy if you do a transfer, are you 
going to get a makeup back inside the box, so you can go ahead and 
invest the savings on new R&D? Are you going to make sure that whoever 
is inside the box running the program is as competent? Some of these 
things, I think, as Larry Cox has said, are very complicated to deal 
with. It is not just a program where you switch somebody out of a seat 
and somebody else takes a seat.
    So the answer to your question is, I think that the process should 
be driven by the policy needs of this country to protect the national 
security of the country, with the capabilities we need to provide for 
that policy. When you go at the process that way, looking at what's the 
policy, what is the United States of America's role in national 
security mission globally, today, to protect Americans at home and 
abroad, or however you want to define it? How do you get that done, 
what are the tools and capabilities we reasonably have? Then go down 
into your list of capabilities, and you have to run through a whole 
bunch of agencies. It is not just the NRO, you have to get into the 
NSA, and then you have to deal with the customer basis of that, the 
things that we are counting on, the data that we need for our baseline 
today that the military and non-military are counting on. When you have 
figured all of that in, then you begin to understand that it would be 
nice to have things that we think we can get to to maintain that data 
base and keep going forward, and the things we ought to be taking a 
risk on, high expense, high risk, high commitment, the kind of thing 
that got the NRO actually going, how much is left to do that.
    My view is that if you do not start with the idea of what you want, 
you are not going to get very far, because you are going to use up all 
of the money if you start setting the figure.
    So the answer is, sure, I can give you a ball park figure, but I 
would rather not, because I would hate to have anybody throw it back at 
me----
    Senator Reed. Right.
    Congressman Goss.--down the road and say that doesn't provide for 
all of these things.
    Senator Reed. I infer from your comments that your advisement is to 
that high-risk----
    Congressman Goss. Yes. I would definitely----
    Senator Reed.--high-payoff approach, which implies some additional 
resources.
    Congressman Goss. Yes, absolutely, and I do not want to be 
misleading or be cute in any way. I believe that the uniqueness, the 
innovation, the creativity that we have seen in the history of the NRO 
is its best asset. I think that is what makes it shine out and gives it 
its special deserved niche among the agencies in the Intelligence 
Community.
    That seems to be the area we ought to nourish the most from 
Congress, never forgetting that we have now created a dependency with 
what the NRO has done so far, and we have to serve that dependency.
    So, in effect, our success has led us to need more success, because 
we have an expectation that we can do this stuff, and we have to do it. 
That is where I am. Yes, it is going to cost something.
    Senator Reed. Mr. Cox, or anyone else, any response or comment?
    Mr. Cox. No comments on that.
    Senator Reed. Let me raise another line of questioning to the 
panel. Last week we heard from the Space Commission. One of their 
recommendations was to consolidate acquisition responsib


   REPORT OF THE NATIONAL COMMISSION FOR THE REVIEW OF THE NATIONAL 
 RECONNAISSANCE OFFICE AND THE REPORT OF THE INDEPENDENT COMMISSION ON 
                THE NATIONAL IMAGERY AND MAPPING AGENCY

                              ----------                              


                         TUESDAY, APRIL 3, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Smith, Allard, Reed, 
and Nelson of Florida.
    Committee staff member present: L. David Cherington, 
counsel.
    Professional staff members present: William C. Greenwalt, 
Thomas L. MacKenzie, and Eric H. Thoemmes.
    Minority staff member present: Creighton Greene, 
professional staff member.
    Staff assistants present: Beth Ann Barozie and Thomas C. 
Moore.
    Committee members' assistants present: Douglas Flanders, 
assistant to Senator Allard; Menda S. Fife, assistant to 
Senator Kennedy; Christina Evans and Terrence E. Sauvain, 
assistants to Senator Byrd; Elizabeth King, assistant to 
Senator Reed; Peter A. Contostavlos, assistant to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I call the Strategic Subcommittee to order. 
We like to have a reputation of starting on time.
    I know that we do not have all of our witnesses here, and 
Congressman Goss is going ahead, but at least I think we want 
to start with opening statements, and then if Congressman Goss 
does not mind, then we will go ahead and proceed with those of 
you who are here.
    The Strategic Subcommittee meets today to receive testimony 
from the National Commission for the Review of the National 
Reconnaissance Office (NRO) and from the Independent Commission 
on the National Imagery and Mapping Agency (NIMA).
    These two commissions, which were established pursuant to 
congressional direction, have performed a critical service, as 
we seek to revitalize United States space and intelligence 
organizations and operations. I believe that it is appropriate 
that we hear from both the NRO and the NIMA Commissions in a 
single hearing, given the close and synergistic nature of these 
two organizations.
    This hearing also complements the testimony that the 
subcommittee received last week from the Commission to Assess 
United States National Security Space Management and 
Organization, which was chaired by now Secretary of Defense, 
Donald Rumsfeld. All three of these commissions have made 
important recommendations that this subcommittee will carefully 
evaluate as the new administration charts its path regarding 
space and intelligence.
    On our first panel, we will receive a presentation from the 
NRO Commission. When we have the co-chairmen here, I will want 
to give them an opportunity--that is Congressman Porter Goss, 
he is the co-chairman with his fellow commissioners, Larry D. 
Cox, Martin C. Faga, and Bill Schneider, Jr., of the NRO and 
NIMA Commissions, to make a few remarks.
    I would like to point out that it was my privilege and 
great pleasure to serve on the NRO Commission with these 
distinguished gentlemen. I understand that later on Congressman 
Goss will be making an opening statement.
    On panel two, we will hear from the chairmen of the NIMA 
Commission, Peter Marino and Kevin O'Connell, and then the 
Commission's executive secretary. We are looking forward to 
that presentation as well.
    Now, before I turn it over to Representative Goss for his 
opening statement, I will recognize my ranking member, Senator 
Reed, for any opening statement he would like to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you for calling this very important hearing. I want to join you 
in welcoming our witnesses this afternoon.
    It is good to see Congressman Goss, who is a colleague from 
the House, and also Mr. Cox, who is a colleague from the House 
Intelligence Committee, and Mr. Faga, welcome.
    I think that we would all agree, in peacetime or in any 
future conflict, we are relying much more heavily on our 
ability to provide useful, timely information to our decision 
makers, be they in the military or elsewhere in the government. 
Certainly, superior knowledge or information superiority is 
central to executing Joint Vision 2020, or any other reasonable 
national military strategy that may emerge from the ongoing 
defense review.
    The NRO and the NIMA have been playing and will continue to 
play a critical role in supporting these national priorities. 
How we manage and modernize these two vital organizations and 
their activities deserve the attention of this subcommittee and 
Congress. We need to make sure that we are marching on the 
right path.
    These two Commission reports, which have broad implications 
for the NRO and NIMA for the future, will be most helpful as we 
conduct our oversight responsibilities. I look forward to 
hearing from the Commission representatives today, and again, 
thank you, Mr. Chairman, for holding this hearing, and for your 
service on the Commission.
    Senator Allard. Thank you very much, Senator Reed. It is 
good to hear from you.
    We will proceed with our testimony. Just to give the panel 
and the members of the subcommittee an idea of what our 
schedule may look like this afternoon, I have been told that we 
can expect to vote around 3:15, or so. Now, that may be 
delayed, but right now, until we find out the schedule, we are 
assuming that that will happen, and as soon as that vote comes 
up, my idea is that we will go vote right away, and come back 
and finish the subcommittee's business.
    So let me go ahead and recognize Congressman Goss, who I 
served with in the House, an expert on intelligence matters. It 
is good to have you here before the Senate subcommittee, Mr. 
Congressman.

 STATEMENT OF PORTER J. GOSS, CO-CHAIRMAN, NATIONAL COMMISSION 
      FOR THE REVIEW OF THE NATIONAL RECONNAISSANCE OFFICE

    Congressman Goss. Thank you very much, Mr. Chairman. I am 
pleased to look up and see two former colleagues, and wonder 
what happened to me, where I went wrong.
    Senator Allard. We know the feeling, Porter. [Laughter.]
    Congressman Goss. I am pleased to be able to address the 
subcommittee this afternoon, Mr. Chairman and Mr. Reed. I think 
that the work that we did on the Commission is very useful. I 
do not think it is definitive, in the sense that it is a final 
recommendation, but I think that it is a series of conclusions 
at a time of evolution in our intelligence capabilities, at a 
time, equally, when we are reviewing new types of threats to 
our national security, and, in fact, perhaps even a new 
definition to our national security.
    I am fortunate today to be accompanied by several 
commissioners, at least two, I see so far. I do not know how 
many others are coming. Of course, Senator Allard, who served 
on the Commission. I think we have provided to the subcommittee 
the materials from the Commission, and any comments from 
Senator Kerry, who was Co-Chairman, I am sure are available, 
and if not, can be made available.
    I plan to make a brief opening statement, if that is all 
right, Mr. Chairman, for the record. Considering the time 
constraints, it will be brief, a couple of minutes. If you want 
me to forego it, I will submit it for the record. I would 
prefer to make the statement, because it synthesizes what I 
think we did.
    Senator Allard. You may proceed here, Congressman. That 
will be fine.
    Congressman Goss. Thank you.
    The Commission was formed pursuant to the Intelligence 
Authorization Act of Fiscal Year 2000. The legislative mandate 
for the Commission was driven by recognition of the changing 
threat environment and the growing concern about NRO's ability 
to provide innovative space-based capabilities that are so 
vital to maintaining our national security, and, indeed, are 
unique.
    The Cos an ambitious goal, Senator.
    Senator Dayton. An ancillary but still related issue is, 
and we are struggling with this in the Congress, is the 
designation and development of a permanent nuclear repository. 
How does the failure of our country to develop such a site 
impact, if it does at all, these aging nuclear weapons, the 
materials, the desire, as you say, or the need to upgrade them 
and develop new capabilities?
    Dr. Schlesinger. Well, that is a very complex question that 
would require extended discussion, but basically we now have a 
site to deal with the waste from the weapons program. It is the 
site in New Mexico called the Waste Isolation Pilot Plant 
(WIPP). I think you may be concerned about the arguments over 
the site in Nevada, which deals with waste, or the individual 
nuclear packages from nuclear reactors. That continues to be a 
matter of great concern, but we are working effectively, if too 
slowly, on disposing of the waste from the weapons program 
itself.
    There has been progress in Idaho. I think there is progress 
continuing at Hanford. There is work going ahead at Savannah 
River, so I think that in that area we have less concern than 
about how to deal with the byproducts of the nuclear reactor 
programs in this country, which has a much stronger ideological 
element in it, may I say, than with regard to the weapons 
program.
    Senator Dayton. I learned something new. I thought that it 
was all going to end up at Yucca Mountain, or some alternative.
    Mr. Guidice. Nuclear weapon production does not generate 
high-level waste. They typically generate low-level and some 
transuranic, which is a mixture of chemical and low-level, so 
the Yucca Mountain is high-level waste from reactors, but the 
weapons program itself does not generate that kind of waste.
    Senator Dayton. Thank you.
    Dr. Schlesinger. These reactors, the fuel in them runs to 
30,000 megawatt days. They can be very, very radioactive, 
whereas with the weapons program basically you are just dealing 
with the byproducts of production, much simpler.
    Senator Dayton. Thank you. Thank you, Mr. Chairman.
    Senator Allard. Thank you. I have about four questions 
here, and then I think we can call everything to a close. I 
appreciate your comments this afternoon and the time you have 
dedicated to the committee.
    Both of you indicated that to increase efforts and 
surveillance capabilities to predict and find defects in the 
stockpile as atop priority. I guess the question related to 
that, do you believe BOB and NNSA has made surveillance a top 
priority, and are they responding to your concerns in that 
regard?
    Dr. Guidice. I think they have, at least I am told they 
have in the last budget year.
    Senator Allard. What about the Congress? I mean, the agency 
is responding. Do you think the Congress is responding?
    Dr. Guidice. I do not know where the negotiation is in 
that. I do know that the Department has tried to make an effort 
to put more money into surveillance on a scale that we thought 
was appropriate.
    Dr. Schlesinger. We will be better able to reach a judgment 
on that, Mr. Chairman, in about 7 or 8 months time.
    Senator Allard. I thought you would answer in that way.
    With the loss of scientists with actual testing environment 
expertise and experience, is there a fear that we could be 
moving toward an era in which our stewards are more experienced 
with computer codes than nuclear physics, and does that create 
a concern for the reliability, safety, and security of the 
stockpile?
    Dr. Guidice. Absolutely. I mean, that is why it is 
important not to allow these stewardship milestones to keep 
slipping into the future until everybody else has died off who 
could train them, and who has any practical experience to 
temper their judgment----
    Senator Allard. Experience is the bottom line in a lot of 
this, is it not?
    Dr. Guidice. Right, and new stewards need some humility to 
realize that these things are not as simple as running a 
computer code.
    By the way, that is not to demean the current generation of 
stewards. The ones that I have talked to I think do have a 
sense of awe about what they are being asked to do, but we need 
to let them do more while the older, experienced people are 
around.
    Senator Allard. Yes. You mentioned a report in section F, 
under NNSA management, on page 24, that unfunded mandates to 
meet functional requirements undermine the program budget, 
plans, and milestones, and I guess the question is, do these 
mandates come from Congress, or do they come from DOE, or both?
    Mr. Guidice. The kinds of unfunded mandates we are talking 
about are generally in safety and security, OK. Security is 
relatively new, this last round of security. We had a round in 
the 1980's as well, but it reaches its height in safety, where 
approaches to safety are not coordinated with program 
requirements, in other words, the work that is actually 
necessary to do to maintain the stockpile.
    We are hopeful that a true or good planning and budgeting 
process would help decide how much to pay on what are now 
unfunded mandates, but what we do not see is a process for 
judging how much is enough. It is very difficult for people and 
for organizations to decide how much safety is enough, are you 
way out on the diminishing returns part of the curve for your 
investment, and what we do not see is the process to put that 
in balance.
    Now, I hope the multiyear budget process----
    Senator Allard. It is very difficult to measure.
    Mr. Guidice. Yes.
    Senator Allard. Could you give me some examples of funded 
mandates which you believe are not critical to the core mission 
at NNSA or the labs?
    Mr. Guidice. Well, I do not want to give you a specific 
example, but I would stick on the issue of safety. A number of 
things that we do in safety are way out on the diminishing 
returns part of the curve. They go beyond the laws and 
regulations. They go to interpretation and increasingly 
restrictive interpretation. We go through waves of this, and 
initially what happens--in fact, there is a wave going on with 
security right now. The requirements are extremely stringent, 
people realize they cannot afford them and pay for them, and 
eventually reason settles in, but only after a long period of 
time and a lot of money to get there.
    I see that mostly in safety. We do things in the name of 
safety that do not really add a lot to safety in terms of 
value-added to the worker and health.
    Dr. Schlesinger. In cases the redesign of a nuclear weapon 
has diminished the reliability of that weapon because of the 
addition of the safety features that might malfunction.
    Senator Allard. I see. Now, in dealing with the question of 
cooperation between DOD and DOE, to what extent has mitigation 
of authority and the temporary vacancy of the assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs negatively affected the relationship between 
DOD and DOE, if at all?
    Dr. Schlesinger. Well, I think the answer to that, Mr. 
Chairman, is that without the critical personnel in the 
Department of Defense in particular, the Nuclear Weapons 
Council, which is supposed to be the bridge between the two 
agencies, becomes less functional, less attentive to problems, 
and therefore it is important either to have that assistant 
Secretary in place, or alternatively to charge somebody else in 
the Pentagon with the responsibility to keep the Nuclear 
Weapons Council functioning.
    Senator Allard. Then, just to conclude here, I would just 
say--unless, Senator Dayton, you have any more questions, if 
anyone needs testimony or copies of the slides you can come to 
the committee and we will have them ready for you, and we will 
leave the record open for 2 days for questions, and thank you, 
Dr. Schlesinger and Mr. Guidice.
    Dr. Schlesinger. The pictures over there of the various 
crumbling facilities also are available for the record.
    Senator Allard. They will be made available. Thank you very 
much.
    Dr. Schlesinger. Thank you, sir.
    Mr. Guidice. Thank you.
    Senator Allard. The subcommittee is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Bob Smith

    Senator Smith. I note that like the DOE, the DOD has serious 
problems sustaining its unique nuclear capabilities. Deterioration in 
facilities, loss of experienced senior scientific and engineering 
staff, the inability to attract a younger generation, and low morale 
all apply.
    What actions might the Panel take during the third year of study to 
develop recommendations for coordination between DOE and DOD that 
retain and reconstitute the complementary capabilities of each 
organization?
    Dr. Schlesinger. For the first few years following in the Cold War, 
the Department of Defense gave, appropriately in my view, less emphasis 
to the nuclear deterrent. The Panel's concern is that DOD has gone too 
far in this regard and that the DOD portion of the nuclear deterrence 
mission has suffered as a result.
    Over the coming year, the Panel will be developing proposed 
confidence indicators--measures that Congress might use to appraise the 
success or failure of stockpile stewardship. This will include measures 
involving the DOD nuclear mission and the Defense Department's 
collaborations with NNSA/DOE. For this purpose, we will be looking at 
the following:

        <bullet> Do DOD strategy reviews and the revised Nuclear 
        Posture Review result in a DOD nuclear deterrence mission that 
        is clearly defined, effectively communicated as a national- and 
        departmental-priority, and adequately resourced?
        <bullet> Does the DOD Nuclear Mission Management Plan provide a 
        genuine plan for all aspects of the DOD nuclear mission, to 
        include specific, measurable objectives; milestones for 
        accomplishments; and resources? Is the DOD plan congruent with 
        the NNSA/DOE Stockpile Stewardship Plan? Has DOD defined 
        specific requirements for the technical capabilities it needs 
        from NNSA, both to meet currently forecast needs associated 
        with the enduring stockpile and current delivery systems, and 
        to meet new requirements if and as the threats to be countered 
        change in the future?
        <bullet> Is the Nuclear Weapons Council functioning effectively 
        as the critical interface between DOD and NNSA/DOE? In this 
        regard, the Panel is encouraged that the NWC has resumed having 
        regular meetings and that at the end of last year it reached 
        initial agreement concerning Life Extension Programs (LEP) for 
        the B61, W80, and W76 weapons. The Panel will be monitoring 
        actions to define and accomplish these programs, plus the 
        status of, and lessons learned from, the W87 LEP that has been 
        underway (and behind schedule) for some time.
        <bullet> Is the Department of Defense providing appropriate 
        senior-level leadership and oversight for DOD nuclear matters? 
        In this regard, our second report recommended that DOD return 
        to the past practice of having an official appointed by the 
        President and confirmed by the Senate serve as Assistant to the 
        Secretary for nuclear matters.

    As part of our appraisal in this area, the Panel will also be 
examining the Defense Department's response to a recommendation posed 
in 1990 by the Congressionally chartered Nuclear Weapons Safety Panel 
that this Assistant to the Secretary of Defense be given a more senior 
status as the OSD member of the Nuclear Weapons Council and upgraded to 
the same status as an Assistant Secretary of Defense, with direct line 
of reporting to the Secretary of Defense.\1\
---------------------------------------------------------------------------
    \1\ Nuclear Weapon Safety. Report of the Panel on Nuclear Weapons 
Safety of the Committee on Armed Services, House of Representatives. 
Committee Print 15. December, 1990, p. 20.
---------------------------------------------------------------------------
    The Panel will also give attention to the programs of the Defense 
Threat Reduction Agency (DTRA), the successor to the Defense Nuclear 
Agency. In the Panel's initial look at the DTRA program, the downward 
trend in funding for nuclear weapons effects research and readiness is 
of concern. Specific issues to be reviewed include integration of DOD 
and DOE programs for nuclear weapon effects modeling, simulation, and 
simulator technology development; the DOD nuclear weapons effects 
phenomenology technical base; and readiness for nuclear tests. In the 
current year, the Panel has already reviewed DTRA test readiness 
activities. Our assessment is that DOD does not have a test readiness 
plan and resourced program.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Senator Reed. Dr. Schlesinger, why is funding for the Laboratory 
Directed Research and Development program important to the overall 
health of the laboratories?
    Is this funding equally valuable for the weapons program?
    Do you agree with the recommendation of the Secretary of Energy's 
Advisory Board Report that LDRD program funding should be increased?
    Dr. Schlesinger. Laboratory Directed Research and Development 
(LDRD) is a very important component of the programs within the three 
nuclear weapon laboratories--Lawrence Livermore, Los Alamos, and 
Sandia. It provides laboratory directors with some flexible resources 
needed to sustain world-class scientific programs. It enables the 
laboratories to initiate development of the next generation of 
technologies in a timely way. LDRD funds are crucial for recruiting the 
best and the brightest of the new scientists for whom the labs are 
always searching.
    Past LDRD funding supported development of some of the key 
technologies being utilized in the Stockpile Stewardship Program.\1\ 
Examples include radiation hardened microelectronics at Sandia, proton 
radiography at Los Alamos, and use of laser heated diamond anvil cells 
to develop new information concerning plutonium equations of state at 
Lawrence Livermore.
---------------------------------------------------------------------------
    \1\ This and the examples below are based on the information 
provided in: Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000.
---------------------------------------------------------------------------
    LDRD provides the preponderance of current funding for weapons-
program-related basic research and new concept development work. This 
is particularly important as we implement the science-based stockpile 
stewardship program.
    Particularly at the physics labs (Lawrence Livermore and Los 
Alamos), LDRD plays an important role in funding postdoctoral 
researchers, many of whom are involved in, or transition to, research 
in direct support of the weapons program.
    The specific Secretary of Energy Advisory Report recommendation 
being referenced is:

        The Congress should restore the LDRD program at the DOE multi-
        program laboratories to at least 6 percent, and should restore 
        Environmental Management programs to the LDRD base.\2\
---------------------------------------------------------------------------
    \2\ Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000. p. 18.

    Our Panel is not chartered to examine environmental management and 
hence has no views concerning this portion of the recommendation. 
Regarding funding level, in our fiscal year 2000 report our Panel 
endorsed Congress' action \3\ to include an allowance of 6 percent for 
LDRD.\4\ We believe it is appropriate to sustain LDRD funding at such a 
level and to invest a significant percentage of these funds on projects 
of direct benefit to stockpile stewardship.
---------------------------------------------------------------------------
    \3\ Conference Report to Accompany H.R. 4635, Report 106-988, p. 
264.
    \4\ Fiscal year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001, p. 22.
---------------------------------------------------------------------------
    Senator Reed. Dr. Schlesinger, you indicated in your testimony that 
the laboratories have been hurt in their ability to attract new 
scientists and engineers as a result of the increased emphasis on 
security.
    Do you have any specific recommendations on how to improve the 
image of labs and their ability to recruit?
    Dr. Schlesinger. There is a strong commitment to security within 
the laboratories, plants, and NNSA. Current issues involve the manner 
in which responses to recent security incidents have been accomplished. 
Our Panel endorses the analysis and recommendations of the security 
review accomplished by Senator Baker and Representative Hamilton. With 
regard to the situation within Los Alamos National Laboratory, it was 
their finding that:

          . . . the combined effects of the Wen Ho Lee affair, the 
        recent fire at LANL, and the continuing swirl around the hard-
        drive episode have devastated morale and productivity at LANL. 
        The employees we met expressed fear and deep concern over the 
        influx of FBI agents and yellow crime-scene tape in their 
        workspace, the interrogation of their colleagues by the FBI and 
        by Federal prosecutors before a grand jury, and the resort of 
        some of their colleagues to taking a second mortgage on their 
        homes to pay for attorney fees. The inevitable anxiety 
        resulting from these circumstances collectively has, by all 
        accounts, had a highly negative effect on the ability of LANL 
        and the other national laboratories to continue to do their 
        work, while attracting and maintaining the talented personnel 
        who are the lifeblood of the cutting-edge work of the 
        laboratory. This is particularly true in X Division and NEST, 
        but seems to be a factor in the lab as a whole.\5\
---------------------------------------------------------------------------
    \5\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton, September 2000, p. 23.
---------------------------------------------------------------------------
          The ability of LANL and the other national laboratories to 
        attract and retain top talent has already been eroded, and now 
        stands at serious risk. If the National laboratories lose the 
        ability to attract and retain top talent, then U.S. national 
        security will be seriously harmed. That harm may be long 
        lasting, in light of the specialized nature of nuclear weapon 
        design technology and the inexorable attrition through 
        retirement and other departures of the dwindling numbers who 
        understand them thoroughly.
          It is doubtful that the DOE, NNSA, LANL, and the University 
        of California will be able effectively to redress either 
        security or management lapses in the midst of a continuing 
        criminal investigation or prosecution. It is critically 
        important to national security that the internal disruptions at 
        LANL be brought to a swift and orderly conclusion, and that the 
        new management structure of the NNSA take all necessary 
        measures to put the laboratory back to work, and to establish 
        the conditions that will be conducive over the long term to the 
        development of leading-edge science in a safe and secure 
        environment.\6\
---------------------------------------------------------------------------
    \6\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 23.

    Our Panel believes that Baker and Hamilton identify key actions 
that are needed to achieve a long-term solution that provides for both 
world-class science and effective security. Two of their 
recommendations warrant particular emphasis. First--There is no 
substitute for individual commitment to security.\7\ The security 
consciousness of personnel within the complex is our primary 
protection.
---------------------------------------------------------------------------
    \7\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 15.
---------------------------------------------------------------------------
    Second--Security procedures should be subject to greater 
predictability, consistency, and consultations with laboratory 
employees.\8\ Staff throughout the complex support the objective of 
having effective security. These are some of the most intelligent 
people in the Nation. We need to involve them to a much greater extent 
in developing measures that provide effective protection for critical 
information and materials while at the same time reducing 
administrative burdens that do not make substantial contributions to 
our objectives. In this regard, we need to make greater use of their 
talents to identify the specific items of information that would be of 
greatest interest to adversaries, such as states attempting to develop 
or improve nuclear weapons, and to develop improved protection for this 
information.
---------------------------------------------------------------------------
    \8\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 22.
---------------------------------------------------------------------------
    If these and the other actions recommended in the Baker-Hamilton 
review are implemented, the result will be a environment conducive to 
excellent science, engineering, and production in which security is 
integral to technical effort and nonproductive administrative burdens 
are minimized. This will make a significant contribution to the ability 
of the labs and plants to recruit the top-quality staffs that are 
needed.
    Our Panel's agenda for the coming year includes development of 
proposed measures indexing the extent to which we can have warranted 
confidence in our stockpile, and the technical and production 
infrastructure that supports it. This will include measures dealing 
with the weapon labs and plants. These indicators will involve 
confidence in the people who do stewardship, in the processes employed, 
and the adequacy of the criteria for the tools necessary to judge 
whether the stockpile can be certified.
    Several years ago the Chiles Commission conducted a very insightful 
survey within the weapons complex.\9\ It asked some very important 
questions, for example: ``Would you recommend your laboratory, 
facility, or test site as a good place to work?''. Responses were 75 
percent, yes; 25 percent, no. To allow the changing status of 
conditions within the labs to be appropriately monitored and appraised, 
Congress might direct that a follow-on survey asking the same questions 
be conducted at several year intervals.
---------------------------------------------------------------------------
    \9\ Commission on Maintaining United States Nuclear Weapons 
Expertise, Report to Congress and Secretary of Energy, March 1, 1999. 
Question responses are provided on p. C-20 of this report.
---------------------------------------------------------------------------
    Senator Reed. Dr. Schlesinger, you suggested a possible need to 
design a robust warhead design.
    Is this suggestion made to ensure maintenance of technical skills 
to design a new warhead, or is this recommendation made to support 
actual development, certification and deployment of a new warhead?
    Dr. Schlesinger. Several points warrant attention in addressing the 
design of robust, alternative warheads. A starting point involves 
policy considerations as articulated in statements made by the previous 
administration that I hope will be endorsed by its successor. The first 
of these is that having the ability to design and field new weapon 
types is an integral part of the stockpile stewardship program.\10\ 
Second, nothing in the proposed CTBT to which the Senate did not give 
advice and consent would inhibit the design, development, or production 
of nuclear weapons.\11\
---------------------------------------------------------------------------
    \10\ ``. . . The ability to design and field new weapons types, 
however, is, appropriately, an integral part of the stockpile 
stewardship program. Response to advanced questions by Ms. Madelyn R. 
Creedon to the Committee on Armed Services, United States Senate, April 
11, 2000, p. 8.
    \11\ ``The United States understands that Article I, paragraph 1 
does not prohibit any activities not involving nuclear explosions that 
are required to maintain the safety, security, and reliability of the 
U.S. nuclear stockpile to include: design, development, production . . 
.''. U.S. Department of State. Article-by-Article Analysis of the 
Comprehensive Nuclear Test-Ban Treaty, Article I--Basic Obligations. p. 
3.
---------------------------------------------------------------------------
    It is important to recognize that when currently deployed weapons 
were designed, there was no expectation that they would be sustained 
beyond their projected service lives in circumstances in which there is 
a unilateral moratorium on testing.
    We did not ask our experts to design weapons on the assumption that 
testing would not be permitted. Instead, we asked them to design 
weapons that are safe and are highly optimized for weight, yield, and 
material usage. The result is that some current stockpile weapon 
designs have thin performance margins. These designs are fussy, and 
past testing has revealed inconsistencies that are not understood.
    Every part within our enduring stockpile weapons is a limited life 
component; every one of these parts will at some point be replaced.\12\ 
Some of the original parts will no longer be available; some 
manufacturing processes cannot be reproduced. Change is unavoidable. 
Consequently, the issue involves decisions concerning the types of 
change that have the lowest risks.
---------------------------------------------------------------------------
    \12\ Statement by Henry G. Chiles, Jr. Before the U.S. Senate Armed 
Services Committee, October 7, 1999.
---------------------------------------------------------------------------
    The Panel recommends design of more robust, alternative warheads 
based on successfully tested designs for both of the reasons stated in 
the question. The objective is to design, develop, and certify robust, 
alternative warheads that would provide hedges against future 
uncertainties. We believe that there may come a time 10 or 20 years 
from now at which we may have more confidence in alternative weapons 
based on more conservative versions of previously tested designs than 
we would have in the inevitably modified versions of enduring stockpile 
weapons.
    In this proposal risk would be reduced by making use of 
conservative versions of designs that have been previously tested. 
There are, however, limits to our confidence in past experience and our 
calculations. If a decision is made to introduce a new robust warhead 
into the active stockpile, decisions would have to be made concerning 
potential testing requirements.
    The Panel also recommends doing this in order to ensure maintenance 
of the technical skills needed for design of new warheads. Perhaps the 
greatest of our challenges is human capital. We need to train a new 
generation of stewards for the nuclear stockpile. This is most 
effectively done by having them work now on design of real weapons 
under the tutelage of experienced designers.
    Senator Reed. Dr. Schlesinger, you and Mr. Guidice discussed that 
the weapons programs are burdened by unfunded mandates for health and 
safety.
    Can you provide some specific examples of specific unfunded 
mandates and can you identify the source of those mandates?
    Dr. Schlesinger. The most problematic unfunded mandates involve 
direction to the laboratories and plants that must be implemented 
immediately or in a very brief period of time. Such direction involves 
actions that were not anticipated when program plans were developed and 
approved and hence can only be implemented by taking resources away 
from other weapons program activities and resources. In other cases 
these mandates involve costs that could be anticipated, but DOE has 
elected not to program the needed resources. Over the past decade, 
unfunded mandates have typically involved matters having to do with 
environment, safety, and health (ES&H) and security matters.
    In every case the organization with primary responsibility for such 
direction is the Department of Energy.
    In some instances mandates involving ES&H result from 
recommendations made by the Defense Nuclear Facility Safety Board 
(DNFSB). For example, there are 29 actions responding to DNFSB 
recommendations scheduled for implementation in 2000-2002. However, it 
remains the responsibility of the Department of Energy to manage 
implementation of such actions in a manner that is responsive to both 
the DNFSB's recommendations and the National objectives being 
accomplished in the weapons program.
    In a recent review, the National Nuclear Security Administration 
has succinctly summarized the impact that unfunded mandates have on 
critical stockpile surveillance tasks:

        Efficiency of conducting surveillance cycles and the timeliness 
        of surveillance data have been adversely affected at the plants 
        by frequent and unexpected changes in security and safety 
        requirements, facility availability, and safety authorization 
        basis changes or expirations. Programmatic needs and schedules 
        should be considered before implementing changes to facilities, 
        processes, or safety authorization basis requirements. Of 
        course, critical safety issues are paramount and must be 
        addressed as quickly as possible.\13\
---------------------------------------------------------------------------
    \13\ Strategic Review of the Surveillance Program: 150-Day Report. 
National Nuclear Security Administration, Defense Programs. January 1, 
2001.

    Many of the recent unfunded mandates involve security. Over the 
past 24 months, DOE has promulgated more than 40 new Orders, Notices, 
and other directives. Once issued, contractors are audited to these new 
standards.
    An example of an unfunded mandate involving security is the 
Secretary of Energy's 9 Point Cyber Security Initiatives and the Six 
Further Enhancements. These were required to be implemented on short 
timelines, with no immediate funding for this purpose. In the case of 
Los Alamos National Laboratory, implementation of this new direction 
entailed a cost of approximately $15M in fiscal year 2001. At Pantex 
Plant, the estimated cost was $31.5M. Some of the new standards had to 
be implemented within 14 days of promulgation. Subsequent to the 
issuance of this guidance, DOE made provision for additional funding 
for these activities; however, when initially implemented, 
reprogramming of resources within the plants and labs was required.
    Another example that had complex-wide impact was DOE direction in 
June, 2000 requiring changes in long-standing security practices. For 
example, some computer media had to be encrypted and all vaults for 
storage of classified materials continuously staffed and when not 
staffed, locked and alarmed. The time frame for implementation varied 
from immediately to 30 days.
    The age of many facilities within the complex impacts 
implementation of a DOE directive to provide for Nationally Recognized 
Testing Laboratory or Equivalent certification for electrical 
equipment. The estimated cost for only the high voltage system at 
Lawrence Livermore National Laboratory is $34M. Los Alamos National 
Laboratory's current estimate for related expenses is approximately 
$50M.
    Many additional examples could be provided. Viewed individually, 
any specific unfunded mandate may not appear significant. To understand 
the impact that these unfunded mandates have on the complex's ability 
to accomplish the Stockpile Stewardship Program, it is necessary that 
attention be given to their substance, to the circumstances within 
which they are being implemented, and to the processes employed by the 
Department of Energy in managing their promulgation and implementation.
    With respect to the substance of the direction provided in these 
mandates, there are instances in which new direction is warranted. Our 
understanding of safety, security, and ES&H matters continues to 
develop, due in large part to a vigorous research program that improves 
our understanding of potential issues. It is the objective of our 
national counterintelligence activities to improve our understanding of 
both potential security threats and appropriate countermeasures. As new 
technologies are deployed as integral parts of the weapons program, new 
measures are needed, e.g., in cyber security. Standards and 
expectations for ES&H and other matters have changed significantly in 
the many decades since some of the current facilities were constructed. 
There are, however, some situations in which required and implemented 
mandates did not add to safety or security. For such cases, it is 
important to improve the process in a manner that allows all 
stakeholders to participate in the appraisal of costs and benefits.
    There is a legitimate requirement for the Department of Energy, as 
the governmental agency responsible for all aspects of the weapons 
program, to provide top-down direction for these matters. Practices 
need to be state-of-the-art and consistent throughout the complex. It 
is also appropriate for DOE to establish milestones for implementation 
of measures to enhance safety, security, and ES&H. A past problem 
within the complex was that such issues could be identified without 
prompt action being taken to redress them.\14\
---------------------------------------------------------------------------
    \14\ In one past situation, a number of years transpired before 
action was taken to respond to a safety-related issues. Nuclear Weapon 
Safety. Report of the Panel on Nuclear Weapons Safety of the Committee 
on Armed Services, House of Representatives. Committee Print 15. 
December, 1990. p. 26.
---------------------------------------------------------------------------
    Furthermore, it is important to recognize that there can be 
exceptional situations, particularly those involving potential safety 
hazards, in which immediate implementation of guidance is imperative.
    Circumstances can make it very difficult to implement unfunded 
mandates. Key issues were identified by the Department of Energy in its 
30-Day Review:

        Additional pressures such as increased security requirements, 
        newly discovered stockpile issues, and resource limitations 
        have collectively forced the program, overall, to be ``wound 
        too tight'' with too little program flexibility or 
        contingencies. This is evident from the fact that the Campaign 
        and Directed Stockpile Work is so tightly intertwined that 
        adjustments to specific program milestones or budgets may 
        result in significant regrets for the SSP as a whole. . .\15\
---------------------------------------------------------------------------
    \15\ Stockpile Stewardship Program: 30-Day Review. U.S. Department 
of Energy. November 23, 1999. p. 7-6.

    Viewed in isolation, many of the unfunded mandate issues that might 
be identified by the laboratories and plants do not appear impressive. 
Why should it matter if 10 staff members were diverted to a new task 
for a number of months? The problem is that in a program that is 
``wound too tight'' the few people capable of performing a technical 
task are diverted in a manner that requires important weapons program 
work to halt, or be significantly delayed, until they are released. A 
similar point holds for management resources within the complex. A new 
task that might be readily managed using standard processes and 
timelines may, if immediate implementation is directed, take a number 
of key managers off-line for a period of time in a manner that has a 
negative impact on multiple activities that can no longer receive 
needed attention. Furthermore, much of the problem is due to the 
aggregate demands posed by the large number of unfunded mandates as 
opposed to mandate-specific burdens.
    Another important circumstance involves the age and deterioration 
of key facilities. We are attempting to apply modern standards in 
facilities that were designed to meet very different criteria. In many 
instances implementation is very difficult. Furthermore, aging and 
uncorrected deterioration make it more likely that issues requiring 
action are likely to develop.
    The processes by which direction is provided by DOE to the 
laboratories and plants exacerbate the problems. A important issue is 
that there have been too many personnel and organizations within DOE 
and NNSA capable of issuing guidance directly to organizations within 
the complex, bypassing line management.\16\ When this happens, 
authority and responsibility are no longer aligned. Congress has taken 
action to solve these problems through establishment of NNSA, and by 
requiring NNSA to develop an appropriate staffing and organization plan 
to identify roles and responsibilities of headquarters and field 
organizations; appropriate modifications, downsizing, eliminations, or 
consolidations of organization units; and modifications to headquarters 
and field organization staffing levels.\17\
---------------------------------------------------------------------------
    \16\ The problem that there are too many people within Defense 
Programs and measures that might be taken to simplify DOE management of 
the weapons program are addressed in The Organization and Management of 
the Nuclear Weapons Program. Paul H. Richanbach, David R. Graham, James 
P. Bell, and James D. Silk. Institute for Defense Analyses Paper 3306. 
March 1997.
    \17\ H.R. 5408, The Floyd D. Spence National Defense Authorization 
Act for Fiscal Year 2001, Section 3153.
---------------------------------------------------------------------------
    In its recent report, our Panel recommended additional actions to 
improve NNSA management that would, among other objectives, alleviate 
some of the burdens associated with unfunded mandates. Specifically, 
DOE needs to focus responsibility and authority in its line management; 
all DOE functional interactions with the weapons complex should flow 
through NNSA; and roles, responsibilities, and line management 
structures within NNSA should be aligned with the structure of the NNSA 
program.\18\
---------------------------------------------------------------------------
    \18\ Fiscal Year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. pp. 24-25.
---------------------------------------------------------------------------
    A second set of process issues involves the manner in which 
direction is developed and communicated. A significant part of the 
problem is that direction with a major impact on accomplishment of the 
weapons program can arrive at the labs and plants with little or no 
advance notice. Modern management practices that make use of integrated 
process team (IPT) and related methods could substantially alleviate 
this problem. This would involve a team approach in which participants 
from the labs and plants would work with NNSA to give consideration to 
new direction before it is issued. This is not to say that the labs and 
plants should have a veto; the objective, rather, is to involve all 
stakeholders in a manner that crafts appropriately focused guidance 
that can be implemented in a manner that minimizes negative impacts on 
other aspects of the weapons programs. In a an extreme situation such 
advance consultation may not be possible, e.g., if a serious safety-
related issue is identified. In most circumstances, however, the Panel 
believes that such advance consultation would be practical and, given 
experience with IPTs within the Department of Defense, beneficial.
    As part of this increased collaboration, the Panel believes that 
actions need to be taken to reduce the amount of time that technical 
staffs within the complex spend on administrative actions that respond 
to DOE taskings. The Panel recommends that DOE and NNSA give immediate 
priority to elimination of two-thirds of these burdens.\19\
---------------------------------------------------------------------------
    \19\ Fiscal year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. p. 25.
---------------------------------------------------------------------------
    The Panel also recommends that NNSA, with significant participation 
from the labs and plants, address some of the strategic issues 
underlying specific direction for matters involving security, safety, 
and ES&H. A basic issue is: What are the standards? There is nothing 
that cannot be made safer or more secure. There appear to be situations 
in which the criteria being imposed exceed or do not clearly correspond 
to law or regulation. This may, in specific situations, be appropriate. 
However, this needs to be established in a more systematic way. This 
would allow resources to be more optimally invested in a balanced 
manner, complex-wide. It would also allow potential interactions 
between standards to be identified and managed; measures to enhance 
safety may or may not contribute to improved security.Furthermore, 
there appear to be situations in which, over time, there is 
requirements creep that adds to burdens without improving safety and 
security.
    Resources are needed for implementation of new direction. Here the 
fundamental problem is a weapons program that is ``wound too tight.'' 
The Panel believes that the Department of Energy's appraisal is on the 
mark:

        . . . Flexibility and contingency is needed in both the science 
        and engineering programs and the production facilities to 
        address these issues. Indicators of stress include lower morale 
        in parts of the work force and increased difficulty in 
        recruitment of top scientists and engineers.\20\
---------------------------------------------------------------------------
    \20\ Stockpile Stewardship Program. 30-Day Review. U.S. Department 
of Energy. November 23, 1999. p. 7-6.

    NNSA/DOE needs to program funding to meet security and ES&H needs. 
Given recent experience with such mandates , it should be possible to 
estimate the magnitude of the investment that may be needed.
    Senator Reed. Dr. Schlesinger, you mentioned that a weapon has been 
redesigned to address a safety issue and as a result the reliability of 
the weapon has been reduced.
    Can you please provide some additional detail on this including 
which weapon, when was the modification made, why was the modification 
made and what was the specific requirement that drove the modification?
    Dr. Schlesinger. The point made during testimony applies to 
multiple weapons in the enduring stockpile. The reliability estimates 
for each of these weapons is classified; however, NNSA does publish 
semi-annual classified reports which you might request.
    A starting point for considering potential interactions between 
weapon safety features and weapon reliability is provided in the report 
of the Congressionally-chartered Nuclear Weapons Safety panel, which 
provides an unclassified overview of the modern approach to enhance the 
electrical safety of a nuclear weapon against premature detonation. All 
of the weapons in the enduring stockpile, except the older W62 which we 
expect to be retired, were designed to incorporate what is called 
``enhanced nuclear detonation safety'' (ENDS). The ENDS concept was 
developed to improve the predictable safe response of our weapons in 
accident environments, such as a fire. ENDS introduces three links (two 
strong and one weak) in an exclusion region within the weapon. For the 
weapon to arm, both strong links have to be closed electrically, one by 
specific operator coded information input, the other by environmental 
input corresponding to a trajectory or spin motion appropriate to the 
weapon's flight profile. The weak link is designed to open (or break) 
and thereby prevent arming if there is a temperature excursion beyond 
set bounds, as might be caused by a fire during an accident.\21\ Design 
or redesign of a weapon to incorporate ENDS necessarily adds components 
to the device. Each component that is added to a weapon is another part 
that might fail, impacting reliability.
---------------------------------------------------------------------------
    \21\ Nuclear Weapon Safety. Report of the Panel on Nuclear Weapons 
Safety of the Committee on Armed Services, House of Representatives. 
Committee Print 15. December, 1990. p. 13.
---------------------------------------------------------------------------
    The same point holds for use control or other features that might 
be added to a weapon. Particularly if these features are integral to 
the performance of the weapon, they involve additional parts that might 
fail and, more generally, add to the complexity of the device, and 
complexity can be the enemy of reliability. Furthermore, such safety 
and control features, like every other part of a nuclear weapon, must 
be regarded as limited life components that will at some point be 
replaced.\22\ Again, this adds a source a complexity with attendant 
implications for reliability.
---------------------------------------------------------------------------
    \22\ Statement by Henry G. Chiles, Jr. Before the U.S. Senate Armed 
Services Committee, October 7, 1999.
---------------------------------------------------------------------------
    In regard to plans for Life Extension Programs (LEPs) for our 
enduring stockpile weapons, over the coming year the Panel will again 
be looking at how well we accomplish safety and security in the design 
of our weapons. We need to make sure that the weapon safety and 
security improvements that are implemented do not unduly reduce our 
confidence in the reliability of our weapons. This is especially true 
if these improvements are designed into the nuclear package of the 
weapon, which cannot be tested under the current nuclear test 
moratorium.
    On this subject, an observation made in the Panel's recent report 
also merits attention: The Panel is concerned that some current 
enduring stockpile weapon designs are so highly optimized for weight, 
yield, and material usage that they provide very thin performance 
margins. These designs are fussy, and testing has revealed 
inconsistencies that are not understood.\23\
---------------------------------------------------------------------------
    \23\ Fiscal Year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. p. 13.
---------------------------------------------------------------------------
    For the enduring stockpile weapons with these characteristics, the 
complexity (and hence potential performance risk) added by safety and 
use control devices is done on top of very thin performance margins. 
The enduring stockpile weapons were never designed on the assumption 
that they would be retained beyond their originally intended service 
lives. Under these circumstances, the Panel recommends that, as a 
matter of prudence, work also be undertaken on the design of robust, 
alternative weapons that will provide a hedge.
    Looking to potential safety/reliability interactions in the future, 
a final point warrants note. The Congressionally chartered Nuclear 
Safety Panel was established in response to issues that had been 
identified in the stockpile of that time. Some of these issues were 
developed because of advances in modeling. With the advent of the first 
three-dimensional codes, it was possible to determine that some 
previous assumptions made concerning the weapons were incorrect. As the 
Stockpile Stewardship Program advances our understanding of the 
enduring stockpile weapons, it is reasonable to expect that we may 
uncover additional issues. In 1990, it was still possible to make 
significant changes to weapon designs and then test them to ensure that 
modifications did not impair reliability. For a modification that 
impacts the nuclear package of the weapon, that option is no longer 
available.

    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]

               <all>0 p.m., the subcommittee adjourned.]

                            <all>o recruit?

*ERR11*Dr. Schlesinger. There is a strong commitment to security within the 
laboratories, plants, and NNSA. Current issues involve the manner in which 
responses to recent security incidents have been accomplished. Our Panel 
endorses the analysis and recommendations of the security review 
accomplished by Senator Baker and Representative Hamilton. With regard to 
the situation within Los Alamos National Laboratory, it was their finding 
that:

*ERR11*  . . . the combined effects of the Wen Ho Lee affair, the recent 
fire at LANL, and the continuing swirl around the hard-drive episode have 
devastated morale and productivity at LANL. The employees we met expressed 
fear and deep concern over the influx of FBI agents and yellow crime-scene 
tape in their workspace, the interrogation of their colleagues by the FBI 
and by Federal prosecutors before a grand jury, and the resort of some of 
their colleagues to taking a second mortgage on their homes to pay for 
attorney fees. The inevitable anxiety resulting from these circumstances 
collectively has, by all accounts, had a highly negative effect on the 
ability of LANL and the other national laboratories to continue to do their 
work, while attracting and maintaining the talented personnel who are the 
lifeblood of the cutting-edge work of the laboratory. This is particularly 
true in X Division and NEST, but seems to be a factor in the lab as a 
whole.\5\*ERR14*

\5\ Science and Security in the Service of the 
Nation: a review of the security incident 
involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of 
the United States and the Secretary of Energy by 
the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton, September 2000, p. 23.

*ERR11*  The ability of LANL and the other national laboratories to attract 
and retain top talent has already been eroded, and now stands at serious 
risk. If the National laboratories lose the ability to attract and retain 
top talent, then U.S. national security will be seriously harmed. That harm 
may be long lasting, in light of the specialized nature of nuclear weapon 
design technology and the inexorable attrition through retirement and other 
departures of the dwindling numbers who understand them thoroughly.ds, as 
we have been talking about age here, and equipment. We are going to need 
those young scientists in the future to come in and continue this 
stewardship, and that was my concern.

*ERR13*Dr. 
Schlesinger. Well, 
it is a very 
appropriate concern, 
Senator. In this 
post cold war period 
there must be 
something 
scientifically 
exciting to attract 
personnel to the 
laboratories, and 
the NIF was one of 
those elements that 
provided scientists 
excitement, and I 
think that may be 
the most important 
aspect of the NIF, 
even given its role 
in stockpile 
stewardship.________
Senator Akaka. Thank 
you very much.______
Senator Allard. 
Thank you, Senator. 
I would like to 
follow that up just 
a little bit. Over 
the last few years, 
there has been a 
push with the labs 
to get more involved 
with economic 
development 
activities, and they 
set up private 
business 
partnerships and 
other activities 
which do not seem to 
support, in my view 
at least, the 
stewardship mission. 
Do these activities 
detract, or do you 
think they enhance 
the core stewardship 
mission for the 
labs?_______________
Dr. Schlesinger. 
That in my judgment 
at least, Mr. 
Chairman, ently able 
to act autonomously? 
This was kind of an 
issue of debate, how 
much autonomy you 
give NNSA.__________
Dr. Schlesinger. I 
am sorry, Mr. 
Chairman.___________
Senator Allard. Do 
you feel that it is 
sufficiently able to 
act autonomously?___
Dr. Schlesinger. 
Well, of course, the 
NNSA is responsive 
to the Secretary, 
and the balance of 
the DOE shares 
certain functions, 
legal and 
comptroller, with 
both sides of the 
agency, but yes, 
with functions, 
legal and 
comptroller, with 
both sides of the 
agency, but yes, 
with .]_____________

                                 <all>

</pre></body></html>
